<,

No.

IN THE
SUPREME COURT OF THE UNITED STATES

LUCKNER PIERRE - PETITIONER
(Your Name)

VS.

ATT. GEN., STATE OF FLORIDA - RESPONDENT(S)
PROOF OF SERVICE
I,

Luckner

Pierre,

do swear or declare that on this date,
~/jgr
, 2021, as required by Supreme Court rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERRTIORARI on each party to
the above proceeding or that party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Office of the Attorney General, 1515 N. Flagler Drive, Suite 900, West Palm
Beach, Florida 33401
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on

e. - /S'

, 2021.
t

(Signature)

19

